W                                                                December 16, 1998



TO:           B/Chief Financial Officer
              H/Acting Associate Administrator for Procurement

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on the Audit of the
              Department of Health and Human Services
              Audit Services Provided to NASA
              Assignment Number A-HA-98-037
              Report Number IG-99-002


The subject final report is provided for your use. Your comments on a draft of this report were
responsive to our recommendations. Our evaluation of your responses has been incorporated into
the body of the report. We consider all recommendations closed.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement and International Agreements Audits, at (818) 354-3360, or
Ms. Anh Doan, Auditor-in-Charge, at (818) 354-9773. We appreciate the courtesies extended to
the audit staff. See Appendix C for the report distribution.



[original signed by]
Russell A. Rau

Enclosure

cc:
G/General Counsel
JM/Management Assessment Division
bcc:
AIGA, IG, Reading (w/o Encl.) Chrons
JPL/180-300/L. Dear
JPL/180-300/A. Doan
                                                           IG-99-002

AUDIT
REPORT
                           DEPARTMENT OF HEALTH AND HUMAN SERVICES
                               AUDIT SERVICES PROVIDED TO NASA


                                       DECEMBER 16, 1998




                                 OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
ADDITIONAL COPIES

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at 202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E St., SW
               Washington, DC 20546


NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling
1-800-424-9183, 1-800-535-8134 (TDD), or by writing the NASA Inspector General, P.O. Box
23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of each writer and caller can
be kept confidential, upon request, to the extent permitted by law.


Acronyms

DHHS           Department of Health and Human Services
DoD            Department of Defense
FY             Fiscal Year
NASA           National Aeronautics and Space Administration
NPG            NASA Procedures and Guidelines
OMB            Office of Management and Budget
                     NASA OFFICE OF INSPECTOR GENERAL
IG-99-002                                                                     DECEMBER 16, 1998
 A-HA-98-037


             DEPARTMENT OF HEALTH AND HUMAN SERVICES
                 AUDIT SERVICES PROVIDED TO NASA

Introduction

The National Aeronautics and Space Administration (NASA) Office of Inspector General is
performing a review of the Department of Health and Human Services (DHHS) audit services
provided to NASA. Our overall objective is to evaluate NASA’s management and use of
DHHS audit services. During the review, we identified three issues related to an outdated
regulation, access to records, and nonreceipt of audit reports. Our recommendations on these
issues could assist in the upcoming negotiation of the interagency agreement between DHHS
and NASA. Details on our scope and methodology are in Appendix A.

Results in Brief

NASA can improve monitoring and evaluating of DHHS audits by incorporating references to
current regulations and an access to records clause in the DHHS proposed interagency agreement
for fiscal year (FY) 1999. Further, NASA should ensure DHHS submits copies of audit reports
to NASA in order for the Agency to adequately perform oversight responsibilities over
educational institutions and non-profit organizations.

Background

NASA uses the services of other Federal agencies to perform audits of contractors,
educational institutions, and non-profit organizations receiving NASA grants and contract
awards. In October 1997, NASA entered into an interagency agreement with the DHHS
Office of Inspector General to provide audit services at educational institutions and non-profit
organizations under DHHS cognizance.1 The interagency agreement is in effect through
September 30, 1998, and may be renewed annually by mutual consent of both parties.2




1
  “A cognizant agency” means a Federal awarding agency that provides the predominant amount of direct
funding to a recipient unless the Office of Management and Budget designates a specific cognizant agency for
an audit assignment. The cognizant agency is also responsible for negotiating and approving facilities and
administrative rates for an educational institution for all Federal agencies.
2
  NASA is awaiting the results of its Inspector General review of DHHS working papers before signing the FY
1999 agreement.
DHHS performs audits for NASA on a cost-reimbursable basis. In addition to audits requested
by NASA users, DHHS initiates audits3 and bills NASA for the effort. Negotiated DHHS audit
services for FY 1998 were estimated to cost NASA $277,335. DHHS has proposed $319,379 for
FY 1999 audit services.

The NASA Financial Management Division, Office of the Chief Financial Officer, negotiates
interagency agreements for audit services performed for NASA, and the Analysis Division,
Office of Procurement, is responsible for monitoring and evaluating the audit services.

Reference to Rescinded Regulation

Finding. The FY 1998 interagency agreement between DHHS and NASA references Office
of Management and Budget (OMB) Circular A-88.4 The reference is inaccurate because
DHHS did not update the agreement for FY 1998 to reflect that the circular had been
rescinded during FY 1996. Further, the DHHS-proposed agreement for FY 1999 also
references the outdated OMB circular. As a result, the agreement does not reflect new
guidance.

The OMB rescinded Circular A-88 in July 1996 and revised Circular A-215 to incorporate
cost negotiation responsibility for educational institutions and cognizant agency
responsibilities. OMB Circular A-21 assigns cost negotiation responsibilities to DHHS or the
Department of Defense (DoD) Office of Naval Research, depending on which agency
provided more funds to the educational institution during the most recent 3 years.

OMB also revised Circular A-1336 which states that the cognizant agency shall:

                 Obtain or conduct quality control reviews of selected audits made
                 by non-Federal auditors, and provide the results, when
                 appropriate, to other interested organizations.

                 Coordinate, to the extent practical, audits or reviews made by or
                 for Federal agencies that are in addition to the audits made
                 pursuant to this [circular], so that the additional audits or reviews
                 build upon audits performed in accordance with this [circular].

                 Coordinate the audit work and reporting responsibilities among
                 auditors to achieve the most cost-effective audit.




3
  Self-initiated DHHS audits are those not specifically requested by NASA. DHHS services consisted of (1)
requested audits, such as preawards and contract closings; and (2) self-initiated audits, such as disclosure
statement reviews and compliance with laws and regulations audits.
4
  OMB Circular A-88, “Indirect Cost Rates, Audits, and Audit Followup at Educational Institutions,”
rescinded effective July 1, 1996.
5
  OMB Circular A-21, “Cost Principles for Educational Institutions,” revised May 19, 1998.
6
  OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations,” revised
June 24, 1997.


                                                       2
The cognizant agency is responsible for (a) audits of financial statements in accordance with
generally accepted government auditing standards; (b) internal control reviews; (c) reviews for
compliance with laws, regulations, and the provisions of contracts or grant agreements;7 and
(d) follow-up reviews on prior audit findings.

Recommendation 1. The Director, Financial Management Division, NASA Office of the
Chief Financial Officer, should request DHHS to update the interagency agreement for
FY 1999 to incorporate reference to revised OMB Circulars A-21 and A-133.

Management’s Response. Concur. The Chief Financial Officer will incorporate the
appropriate reference in any future agreements with DHHS for audit services.

Evaluation of Management’s Response. The planned action is responsive to the
recommendation.

Access to Records

Finding. NASA does not have access to documentation that explains the DHHS billings to
NASA for audit services because (1) NASA does not have an access to records clause in its
agreement with DHHS, and because (2) OMB Circular A-133,8 which has an access to
records clause, was not referenced in the agreement. DHHS provided NASA a schedule
identifying NASA contracts and hours expended for audit services; however, the schedule did
not explain the nature of the DHHS services. As a result, NASA could not determine the
scope of the audits that DHHS performed or the reasonableness of the charges to NASA for
those audits.

Recommendation 2. The Director, NASA Office of the Chief Financial Officer, Financial
Management Division, should incorporate an access to records clause in the FY 1999
agreement with DHHS to reinforce the provisions in OMB Circular A-133 regarding access to
working papers and to facilitate reviews.

Management’s Response. Concur. The Chief Financial Officer will incorporate an access to
records clause in any future agreements with DHHS for audit services.

Evaluation of Management’s Response. The planned action is responsive to the
recommendation.




7
  OMB Circular A-133, Appendix B: May 1998 Compliance Supplement.
8
  OMB Circular A-133 states: “Audit working papers shall be made available upon request to the cognizant or
oversight agency for audit or its designee, …, to resolve audit findings, or to carry out oversight
responsibilities consistent with the purposes of this part. Access to working papers includes the right of
Federal agencies to obtain copies of working papers, as is reasonable and necessary.”


                                                     3
DHHS Submission of Audit Reports to NASA

Finding. NASA did not receive copies of DHHS self-initiated audits. DHHS policy was to
send those reports to NASA’s headquarters. However, NASA orally notified DHHS 3 years
ago to stop sending copies of the audit reports. Also, NASA does not have a central system
to monitor, coordinate, and evaluate audits performed by DHHS for the Agency, as required
by NASA Procedures and Guidelines (NPG) 1200.1,9 section 2.8. Audit reports issued by the
NASA Office of Inspector General10 and the General Accounting Office11 previously identified
the lack of a central monitoring system. Without the reports on the self-initiated audits,
NASA cannot determine whether the audit scopes were commensurate with the hours charged
and cannot perform other oversight responsibilities over educational institutions and non-
profit organizations.

Recommendation 3. The Director, Analysis Division, NASA Office of Procurement, should
establish (a) procedures to request copies of the DHHS audit reports and (b) a central system
responsible for monitoring, coordinating and evaluating DHHS audits performed for NASA.

Management’s Response. Concur. These procedures will be established if NASA elects to
obtain audit services from DHHS in the future.

Evaluation of Management’s Response. The planned action is responsive to the
recommendation.




9
  NPG 1200.1, “Management Accountability and Control, Audit Liaison, and Audit Followup,”
October 8, 1997.
10
   “NASA Audit Followup Process: Headquarters Center,” HQ-94-009, May 26, 1994.
11
   “NASA Contract Management: Improving the Use of DCAA’s Auditing Services,” GAO NSIAD-94-229,
September 30, 1994.




                                                4
APPENDIX A


SCOPE AND METHODOLOGY
We conducted the audit in accordance with generally accepted government auditing standards.
We performed the audit field work for this report from May through September 1998.
We examined and tested applicable records and documentation to identify applicable management
controls and to verify that the controls were working as described. Specifically, we:

   •   Reviewed interagency agreements between NASA and the DHHS, applicable
       NASA procedures and guidance, and applicable OMB Circulars.

   •   Interviewed representatives at the NASA Office of the Chief Financial Officer,
       NASA Office of Procurement, and DHHS Office of Inspector General.

   •   Reviewed audit reports on contract audit management issued by the NASA Office
       of Inspector General and the U.S. General Accounting Office.




                                             5
APPENDIX B

Management’s Response




                        6
APPENDIX B




             7
APPENDIX C


REPORT DISTRIBUTION

National Aeronautics and Space Administration (NASA) Headquarters

Code B/Chief Financial Officer
Code C/Associate Administrator for Headquarters Operations
Code G/General Counsel
Code H/Acting Associate Administrator for Procurement
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code P/Associate Administrator for Public Affairs
Code Q/Associate Administrator for Safety and Mission Assurance
Code R/Associate Administrator for Aero-Space Technology
Code S/Associate Administrator for Space Science
Code U/Associate Administrator for Life and Microgravity Sciences and Applications
Code W/Assistant Inspector General for Inspections, Administrative Investigations and
  Assessments
Code Y/Associate Administrator for Earth Science
Code Z/Acting Associate Administrator for Policy and Plans

NASA Offices of Inspector General

Ames Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center




                                             8
APPENDIX C


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division, General Accounting
   Office
Special Counsel, House Subcommittee on National Security, International Affairs, and
   Criminal Justice
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

The Honorable Pete Sessions, U.S. House of Representatives




                                              9
                      Major Contributors to the Report

Lorne A. Dear, Program Director, Procurement and International Agreements Audits
Anh Doan, Auditor-in-Charge
Van Tran, Auditor
Nancy C. Cipolla, Report Process Manager
